                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 14-00227-131


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

   Birmingham VA Medical Center 

       Birmingham, Alabama 





April 28, 2014

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                            CBOC and PCC Reviews at Birmingham VA Medical Center, Birmingham, AL



                                            Glossary
                       ACOS       Associate Chief of Staff, Primary Care and
                                  Community Based Medicine
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MH         mental health
                       MM         medication management
                       NIAAA      National Institute on Alcohol Abuse and
                                  Alcoholism
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCMM       Primary Care Management Module
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                                   CBOC and PCC Reviews at Birmingham VA Medical Center, Birmingham, AL



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    7

  DWHP Proficiency ..................................................................................................              8


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            9

  B. PACT Compass Metrics ....................................................................................                    11

  C. VISN Director Comments ..................................................................................                    15

  D. Facility Director Comments ...............................................................................                   16

  E. OIG Contact and Staff Acknowledgments .........................................................                              19

  F. Report Distribution .............................................................................................            20

  G. Endnotes ...........................................................................................................         21





VA OIG Office of Healthcare Inspections
                           CBOC and PCC Reviews at Birmingham VA Medical Center, Birmingham, AL



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans.      We conducted site visits during the weeks of January 27 and
February 23, 2014, at the following CBOCs which are under the oversight of the
Birmingham VA Medical Center and Veterans Integrated Service Network 7:

    Gadsden CBOC, Gadsden, AL

    Jasper CBOC, Jasper, AL

Review Results: We conducted four focused reviews and had no findings for the
Environment of Care review. The Designated Women’s Health Provider Proficiency
review had a finding that did not result in a recommendation. However, we made
recommendations in the following two review areas:

Alcohol Use Disorder. Ensure that CBOC/PCC:

	    Staff consistently complete diagnostic assessments for patients with a positive
      alcohol screen.

	    Staff consistently document the offer of further treatment to patients diagnosed with
      alcohol dependence.

	    Ensure that patients with excessive persistent alcohol use receive brief treatment or
      are evaluated by a specialty provider within 2 weeks of the screening.

Medication Management. Ensure that CBOC/PCC:

	    Staff document that medication reconciliation was completed at each episode of
      care where the newly prescribed fluoroquinolone was administered, prescribed, or
      modified.

	    Staff consistently provide written medication information that includes the
      fluoroquinolone.

	    Staff provide medication counseling/education that includes the fluoroquinolone.




VA OIG Office of Healthcare Inspections                                                      i
                           CBOC and PCC Reviews at Birmingham VA Medical Center, Birmingham, AL


Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 15–18, for the full text of the Directors’ comments.) We will follow up on
the planned actions until they are completed.




                                                         JOHN D. DAIGH, JR., M.D. 

                                                        Assistant Inspector General for 

                                                           Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                      ii
                               CBOC and PCC Reviews at Birmingham VA Medical Center, Birmingham, AL



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were only conducted at randomly selected CBOCs that had
not been previously inspected.a Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




a
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                          1
                               CBOC and PCC Reviews at Birmingham VA Medical Center, Birmingham, AL


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C scoreb and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                                    CBOC and PCC Reviews at Birmingham VA Medical Center, Birmingham, AL



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted physical inspections of the two CBOCs. The
table below shows the areas reviewed for this topic. The facility generally met requirements.
We made no recommendations.

Table 2. EOC

NM                      Areas Reviewed                                     Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas (e.g.,
       mental health clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.




VA OIG Office of Healthcare Inspections                                                               3
                                    CBOC and PCC Reviews at Birmingham VA Medical Center, Birmingham, AL


                 Areas Reviewed (continued)                                Findings
       All medications are secured from
       unauthorized access.
       Personally identifiable information is protected
       on laboratory specimens during transport so
       that patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The Information Technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.




VA OIG Office of Healthcare Inspections                                                               4
                                    CBOC and PCC Reviews at Birmingham VA Medical Center, Birmingham, AL


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                         Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
 X     Diagnostic assessments are completed for           Staff did not complete diagnostic assessments
       patients with a positive alcohol screen.           for 8 (27 percent) of 39 patients who had
                                                          positive alcohol use screens.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       NIAAA guidelines.
 X     Documentation reflects the offer of further        We did not find documentation of the offer of
       treatment for patients diagnosed with alcohol      further treatment for two of six patients
       dependence.                                        diagnosed with alcohol dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
 X     Counseling, education, and brief treatments        Treatment was not provided within 2 weeks of
       for AUD are provided within 2 weeks of             the positive screening for 10 of 16 patients.
       positive screening.
       CBOC/PCC RN Care Managers have
       received motivational interviewing training
       within 12 months of appointment to PACT.
       CBOC/PCC RN Care Managers have
       received VHA National Center for Health
       Promotion and Disease Prevention-approved
       health coaching training (most likely TEACH
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.


1. We recommended that staff consistently complete diagnostic assessments for patients with
a positive alcohol screen.

2. We recommended that staff consistently document the offer of further treatment to patients
diagnosed with alcohol dependence.



VA OIG Office of Healthcare Inspections                                                                   5
                                    CBOC and PCC Reviews at Birmingham VA Medical Center, Birmingham, AL


3. We recommended that managers ensure that patients with excessive persistent alcohol use
receive brief treatment or are evaluated by a specialty provider within 2 weeks of the screening.




VA OIG Office of Healthcare Inspections                                                               6
                                    CBOC and PCC Reviews at Birmingham VA Medical Center, Birmingham, AL


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 39 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 9 (23 percent) of 39 patient
                                                         EHRs.
 X     Written information on the patient’s prescribed   We did not find documentation that 18 (46
       medications was provided at the end of the        percent) of 39 patients received written
       outpatient encounter.                             information that included the fluoroquinolone.
 X     Medication counseling/education for the           We did not find documentation of medication
       fluoroquinolone was documented in the             counseling that included the fluoroquinolone in
       patients’ EHRs.                                   14 (36 percent) of 39 patients’ EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.


Recommendations

4. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.

5. We recommended that staff consistently provide written medication information that includes
the fluoroquinolone.

6. We recommended that staff consistently provide medication counseling/education that
includes the fluoroquinolone.




VA OIG Office of Healthcare Inspections                                                                    7
                                    CBOC and PCC Reviews at Birmingham VA Medical Center, Birmingham, AL


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, PCMM data, and supporting
documentation for DWHPs’ proficiencies. The table below shows the areas reviewed for this
topic. The area marked as NM did not meet applicable requirements and needed improvement.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                       Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated               Thirteen of 13 DWHPs were not designated with
 X
       with the WH indicator in the PCMM.               the WH indicator in the PCMM.

The facility made the required WH designations in PCMM for CBOC and PCC DWHPs during
the weeks of our reviews. We verified the updated information.




VA OIG Office of Healthcare Inspections                                                                 8
                                                                         CBOC and PCC Reviews at Birmingham VA Medical Center, Birmingham, AL
                                                                                                                                  Appendix A


                                                                   CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.c
The table below provides information relative to each of the CBOCs.

                                                                                    Uniquesd                                  Encountersd

                                Station                  CBOC
         Location      State               Localitye                  MHg        PCh       Otheri       All       MHg        PCh       Otheri       All
                                   #                      Sizef
    Huntsville          AL      521GA        Urban       Large       2,217      5,655      4,584      7,188      16,767     17,909     11,426     46,102
    Decatur/Madison     AL      521GB        Urban       Large       1,171      3,677      4,235      5,668      5,921      10,379     11,385     27,685
    Anniston/Oxford     AL      521GE        Urban      Mid-Size     1,704      3,757      2,304      4,248      7,876      11,939      5,346     25,161
    Rainbow City        AL      521GD        Urban      Mid-Size     1,211      3,656      2,121      4,055      6,992      10,575      7,011     24,578
    Florence (Shoals
                        AL      521GC        Urban      Mid-Size     1,226      3,335      3,016      3,613      9,055       9,041      9,518     27,614
    Area)
    Bessemer            AL      521GG        Urban      Mid-Size      907       2,355      2,701      3,106      6,880       7,740     14,313     28,933
    Guntersville        AL       521GI       Rural      Mid-Size      655       1,862      1,643      2,144      4,614       6,937      6,144     17,695
    Jasper              AL      521GF        Rural      Mid-Size      768       1,740      1,815      2,076      3,989       5,409      9,173     18,571
    Childersburg        AL      521GH        Rural      Mid-Size      700       1,747       974       1,918      5,638       6,603      2,070     14,311
 




c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

i
  All other non-Primary Care and non-MH stop codes in the primary position.


VA OIG Office of Healthcare Inspections                                                                                                                    9
                               CBOC and PCC Reviews at Birmingham VA Medical Center, Birmingham, AL


                                   CBOC Services Provided 

In addition to primary care integrated with WH and mental health care, the CBOCs
provide various specialty care, ancillary, and tele-health services. The following table
lists the services provided at each CBOC.j

                                                                                                  Tele-Health
             CBOC               Specialty Care Servicesk           Ancillary Servicesl
                                                                                                   Servicesm
                                       Optometry                       Nutrition                  Tele Primary
    Huntsville
                                      Dermatology                   Rehabilitation                    Care
                                      Dermatology                     Audiology                   Tele Primary
    Decatur/Madison                                           Diabetic Retinal Screening              Care
                                                                       Nutrition
                                      Dermatology                      Nutrition                  Tele Primary
    Anniston/Oxford
                                                              Diabetic Retinal Screening              Care
                                      Dermatology                     Pharmacy                    Tele Primary
    Rainbow City                                                       Nutrition                      Care
                                                              Diabetic Retinal Screening
                                      Dermatology             Diabetic Retinal Screening          Tele Primary
    Florence (Shoals Area)
                                                                                                      Care
                                      Optometry                       Pharmacy                    Tele Primary
                                Anti-Coagulation Clinic                Nutrition                      Care
    Bessemer
                                                              Diabetic Retinal Screening
                                                                  MOVE! Programn
                                            ---                       Pharmacy                    Tele Primary
    Guntersville
                                                              Diabetic Retinal Screening              Care
                                Anti-Coagulation Clinic               Pharmacy                    Tele Primary
    Jasper
                                                                       Nutrition                      Care
                                      Dermatology                      Nutrition                  Tele Primary
    Childersburg                                              Diabetic Retinal Screening              Care
                                                                      Pharmacy
 




j
  Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the July 1, 2012, through June 30, 2013, timeframe at the specified

CBOC. 

k
  Specialty Care Services refer to non-Primary Care and non-Mental Health services provided by a physician. 

l
  Ancillary Services refer to non-Primary Care and non-Mental Health services that are not provided by a physician. 

m
   Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

n
  VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                           10
                                                                         CBOC and PCC Reviews at Birmingham VA Medical Center, Birmingham, AL
                                                                                                                                  Appendix B


                                                         PACT Compass Metrics





                                                                                                                                                            
Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
national to the division level.
VA OIG Office of Healthcare Inspections                                                                                                               11
                                                                          CBOC and PCC Reviews at Birmingham VA Medical Center, Birmingham, AL




Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures.
The total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on
the 1st and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure. Blank cells indicate the
absence of reported data.

VA OIG Office of Healthcare Inspections                                                                                                                   12
                                                                         CBOC and PCC Reviews at Birmingham VA Medical Center, Birmingham, AL




Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.

VA OIG Office of Healthcare Inspections                                                                                                                  13
                                                                          CBOC and PCC Reviews at Birmingham VA Medical Center, Birmingham, AL




Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric.

VA OIG Office of Healthcare Inspections                                                                                                                   14
                           CBOC and PCC Reviews at Birmingham VA Medical Center, Birmingham, AL
                                                                                    Appendix C
                               VISN Director Comments


               Department of
               Veterans Affairs                                 Memorandum


           Date:       April 15, 2014

          From:        Director, VISN 7 (10N7)

       Subject: 	      CBOC and PCC Reviews of the Birmingham VA Medical
                       Center, Birmingham, AL

             To:       Director, Atlanta Office of Healthcare Inspections (54AT)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I have reviewed the CBOC Report and I concur with Birmingham’s
          corrective action plan. VISN 7 will provide oversight and ensure
          support is available to successfully complete these actions as indicated
          within this report.

       2. If you have questions or need additional information, please contact
          Dr. Robin Hindsman at 678-924-5723.



       (original signed by:)

       Charles E. Sepich, FACHE




VA OIG Office of Healthcare Inspections                                                     15
                           CBOC and PCC Reviews at Birmingham VA Medical Center, Birmingham, AL
                                                                                    Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs 	                               Memorandum


           Date:       April 2, 2014

          From:        Director, Birmingham VA Medical Center (521/00)

       Subject: 	      CBOC and PCC Reviews of the Birmingham VA Medical
                       Center, Birmingham, AL

             To:       Director, VISN (10N7)

      1. The Birmingham VA Medical Center has reviewed the CBOC Report
         and concurs with the recommendations.           Corrective actions are
         underway with identified target completion dates.

       2. If you have questions or need additional information, please contact
          my office at (205) 933-4515.



           (original signed by:)

           Thomas C. Smith, III, FACHE




VA OIG Office of Healthcare Inspections                                                     16
                           CBOC and PCC Reviews at Birmingham VA Medical Center, Birmingham, AL


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that staff consistently complete diagnostic
assessments for patients with a positive alcohol screen.

Concur

Target date for completion: September 30, 2014

Facility response: The ACOS of Primary Care will ensure that clinical staff consistently
completes diagnostic assessments for patient with positive alcohol screens. Positive
alcohol screens will be tracked on a monthly basis for completion. The percentage
completed will be tracked and monitored by Primary Care Service and reported monthly
to the Quality Value Council.

Recommendation 2. We recommended that staff consistently document the offer of
further treatment to patients diagnosed with alcohol dependence.

Concur

Target date for completion: September 30, 2014

Facility response: The ACOS of Primary Care will ensure that clinical staff consistently
documents the offer of further treatment to patients diagnosed with alcohol dependence.
Documentation of the offered treatment will be tracked on a monthly basis. Compliance
for treatment offered will be tracked and monitored by Primary Care Service and
reported monthly to the Quality Value Council.

Recommendation 3. We recommended that managers ensure that patients with
excessive persistent alcohol use receive brief treatment or are evaluated by a specialty
provider within 2 weeks of the screening.

Concur

Target date for completion: September 30, 2014

Facility response: The ACOS of Primary Care and the Chief of Mental Health will
ensure that patients with excessive persistent alcohol use receive brief treatment or are
evaluated by a specialty provider within 2 weeks of the screening. Compliance for
evaluation by a specialty provider within 2 weeks will be tracked and monitored by
Primary Care service and reported monthly to the Quality Value Council.




VA OIG Office of Healthcare Inspections                                                     17
                           CBOC and PCC Reviews at Birmingham VA Medical Center, Birmingham, AL


Recommendation 4.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: September 30, 2014

Facility response: The ACOS for Primary Care will ensure staff document that
medication reconciliation was completed at each episode of care where the newly
prescribed fluoroquinolone was administered, prescribed, or modified. Primary Care
Service will monitor compliance and provide monthly reports to the Quality Value
Council.

Recommendation 5.         We recommended that staff consistently provide written
medication information that includes the fluoroquinolone.

Concur

Target date for completion: September 30, 2014

Facility response: The Chief of Pharmacy will develop a process to ensure staff
consistently provides written medication information that includes the fluoroquinolone.
The process will be presented to Health System Council for review and approval.

Recommendation 6.             We recommended that                staff   provide   medication
counseling/education that includes the fluoroquinolone.

Concur

Target date for completion: September 30, 2014.

Facility response: The ACOS for Primary Care will ensure staff provides medication
counseling/education that includes the fluoroquinolone. Primary Care Service will
monitor compliance and provide monthly reports to the Quality Value Council.




VA OIG Office of Healthcare Inspections                                                     18
                           CBOC and PCC Reviews at Birmingham VA Medical Center, Birmingham, AL
                                                                                    Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Tishanna McCutchen, ARNP, MSN,Team Leader
Contributors
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Joanne Wasko, LCSW
                        Toni Woodard, BS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                     19
                           CBOC and PCC Reviews at Birmingham VA Medical Center, Birmingham, AL
                                                                                     Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 7 (10N7)
Director, Birmingham VA Medical Center (521/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Jeff Sessions, Richard C. Shelby
U.S. House of Representatives: Robert B. Aderholt, Terri A. Sewell


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                     20
                                CBOC and PCC Reviews at Birmingham VA Medical Center, Birmingham, AL
                                                                                         Appendix G

                                                   Endnotes 


1
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
2
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
3
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
4
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
5
  Reference used for PACT Compass data graphs:
   Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    21
